2311 Douglas Street
Omaha, Nebraska 68102-1214

 

. E-Mail Address:
Le ga 1 Bri e fs contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No.
ANDREW DEMMA,
Petitioner.
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 6088 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Notary Public Affiant 39767
